CERTIFICATE OF COMPLIANCE WITH RULE 33.2
I, Johanna Schiavoni, counsel for petitioner, certify that this document is
prepared in accordance with the requirements of Supreme Court Rule 33.2, and
contains 4,523 words, exclusive of the table of contents, table of authorities,
signature lines, and certificates of service and compliance, as counted by the
word count program of Microsoft Word.
I also certify that this brief complies with the typeface requirements
because the brief is prepared in a proportionally spaced typeface using 12-point
Century Schoolbook font.
I declare under penalty of perjury that the foregoing is true and correct.
Executed November 9, 2020 at San Diego, California.

s/ Johanna S. Schiavoni
By: Johanna S. Schiavoni
LAW OFFICE OF
JOHANNA S. SCHIAVONI

